Kine & SPALDING King & Spalding LLP

1700 Pennslyvania Avenue NW
Washington, D.C. 20006

Tel: +1 202 262 2627
www.kslaw.com

Ashley C. Parrish
aparrish@kslaw.com

October 22, 2019

Honorable Scott S. Harris

Office of the Clerk

Supreme Court of the United States
1 First Street, N.E.

Washington, D.C. 20543

Re: No. 19-152, Amarin Pharma, Inc., et al. v. International Trade
Commission, et al.

Dear Mr. Harris:

We recently learned that the petition for a writ of certiorari in this matter,
which was docketed August 1, 2019, contains a minor cite checking error.

On page 15, the petition describes the position taken by the United States in
briefing before the Federal Circuit. The petition states:

The United States maintained that “private parties, like
Amarin, may not initiate proceedings in a court or
adminstrative agency” to protect “competitive interests related
to violations of the of the FDCA.” Br. of the United States as
Amicus Curiae, at 7, No. 18-1247, Dkt. 79 (Mar. 27, 2018).

The second set of internal quotation marks is incorrect and should not have
been included. Instead the brief should read:

The United States maintained that “private parties, like
Amarin, may not initiate proceedings in a court or
adminstrative agency” to protect competitive interests related to
violations of the of the FDCA. Br. of the United States as
Amicus Curiae, at 7, No. 18-1247, Dkt. 79 (Mar. 27, 2018).

I would appreciate your assistance in distributing this letter to the members
of the Court.
Page 2

Respectfully submitted,

Prana tye
Ashley. Parrish
Counsel for Petitioner

cc: Houda Morad
Noel Francisco
Mark S. Davies
Annette Louise Hurst
Andrew D. Silverman
Andrew F. Pratt
